     PRIOR PERIOD ADJUSTMENT TO REMOVE NATIONAL
     DEFENSE PROPERTY, PLANT, AND EQUIPMENT FROM
         THE DOD AGENCY-WIDE BALANCE SHEET


Report No. D-2001-011               November 16, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD, Home Page
  at www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution Unit of the
  Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                          OAIG-AUD (ATTN: AFTS Audit Suggestions)
                            Inspector General, Department of Defense
                               400 Army Navy Drive (Room 801)
                                   Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
  sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller is
  fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
PP&E                  Property, Plant, and Equipment
RSSI                  Required Supplementary Stewardship Information
SFFAS                 Statement of Federal Financial Accounting Standards
                          Office of the Inspector General, DoD
Report No. D-2001-011                                                 November 16, 2000
   (Project No. D2000FH-0080.003)
    (formerly Project No. 0FH-2109.03)




            Prior Period Adjustment to Remove National Defense
                  Property, Plant, and Equipment From the
                      DoD Agency-Wide Balance Sheet

                                   Executive Summary

Introduction. This audit was performed in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. This audit
report addresses the requirement to remove all dollar amounts representing the new
categories of stewardship property, plant, and equipment from the DoD Agency-wide
balance sheet by means of a prior period adjustment. The DoD made a prior period
adjustment of about $741 billion and reported about $698.7 billion of it as removal of
National Defense property, plant, and equipment from the balance sheet. This is one of
two reports on stewardship reporting in DoD. This report covers the explanation of the
prior period adjustment in the DoD Agency-wide financial statement and the
explanations in the component statements. A separate audit report covers the Army prior
period adjustment.

Objectives. The overall audit objectives were to determine whether the Military
Departments were consistently identifying National Defense property, plant, and
equipment as defined in the Statement of Federal Financial Accounting Standards No. 11,
“Amendments to Accounting for Property, Plant, and Equipment: Definitional Changes,”
October 1998, and whether the amount of the prior period adjustment that removed
National Defense property, plant, and equipment from the balance sheet was correct.
Because the prior period adjustments were one-time events, no management control
program applies to them. Therefore, a review of management controls for this audit was
not applicable.

Results. The DoD Agency-wide financial statements incorrectly stated that
$698.7 billion of the prior period adjustment was made to remove National Defense
property, plant, and equipment from the balance sheet. However, only $635.5 billion of
the adjustment was related to National Defense property, plant, and equipment.
Therefore, the financial statement footnotes incorrectly overstated by $63.2 billion the
value of National Defense property, plant, and equipment previously reported on the
balance sheet before the adjustments. If the dollar values of National Defense property,
plant, and equipment had been reported in the required supplementary stewardship
information, they would have been incorrect. In addition, future statements showing the
dollar value of National Defense property, plant, and equipment will be significantly less
than the amount removed. Finally, because DoD information is consolidated into the
Government-wide reporting, Government-wide financial statements will continue to be
inaccurate until necessary corrections are made and disclosures presented. For details of
the audit results, see the Finding section of the report.
Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Indianapolis Center, implement the existing guidance requiring
full explanation of all prior period adjustments in the notes to the financial statements.
We also recommend that the Director correct the erroneous footnote presentation of the
prior period adjustment in future DoD Agency-wide financial statement narratives or
footnotes and present, with any appropriate explanations, the correct amounts for
National Defense property, plant, and equipment for all applicable components. Finally,
we recommend that the Director, Defense Finance and Accounting Service Indianapolis
Center, maintain consistency between the DoD Agency-wide financial statements and
underlying component statements.

Management Comments. The Defense Finance and Accounting Service concurred with
the recommendations to implement existing guidance requiring full explanation of all
prior period adjustments and to maintain consistency between the DoD Agency-wide
statements and the component statements. However, the Defense Finance and
Accounting Service did not concur with disclosing the erroneous statement about the
prior period adjustment or with disclosing the correct valuations of National Defense
property, plant, and equipment in future financial statements. Additionally, the
comments did not indicate the corrective action that would be taken to maintain
consistency between the DoD Agency-wide statements and the component statements.
The Defense Finance and Accounting Service considered the additional disclosures
inappropriate and unnecessary. See the Finding section of the report for a discussion of
the management comments and the Management Comments section for the complete
text.

Audit Response. Management comments are partially responsive. The intent of our
recommendations for future financial statements was to ensure that financial statements,
footnotes, and other financial information clearly document the value of National
Defense Property, Plant, and Equipment removed from the financial statements. The
Defense Finance and Accounting Service did not address the fact that the overstatement
of this value by at least $63.2 billion could be repeated if the Federal Accounting
Standards Advisory Board reinstates National Defense Property, Plant, and Equipment on
the DoD financial statements. Additionally, although the management comments concur
with the recommendation to maintain consistency between DoD Agency-wide statements
and component statements, they do not identify the action to be taken. We request that
the Director, Defense Finance and Accounting Service, provide comments on the final
report by January 16, 2001.




                                            ii
Table of Contents

Executive Summary                                                          i

Introduction
     Background                                                            1
     Objectives                                                            3

Finding
     DoD Agency-Wide Prior Period Adjustment for Removal of National
         Defense Property, Plant, and Equipment                            4

Appendixes
     A. Audit Process
          Scope                                                           11
          Methodology                                                     12
          Prior Coverage                                                  12
     B. Categories and Reporting Requirements for Stewardship Property,
          Plant, and Equipment                                            13
     C. Report Distribution                                               15




Management Comments
     Defense Finance and Accounting Service                               17
Background
    The Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994, requires financial statement audits by the Inspectors
    General and prescribes the responsibilities of management for the financial
    statements, internal controls, and compliance with laws and regulations. This
    report addresses the prior period adjustment to the net position of DoD. The
    FY 1998 DoD Agency-wide financial statements reported that $698.7 billion of
    the $741 billion prior period adjustment was for removal of National Defense
    property, plant, and equipment (PP&E) from the balance sheet. We disclaimed an
    opinion on the FYs 1998 and 1999 DoD Agency-wide financial statements. The
    disclaimers occurred for a number of reasons, in part because of deficiencies in
    internal controls and accounting systems related to general property, plant, and
    equipment; inventory; environmental liabilities; military retirement health
    benefits liability; and material lines within the Statement of Budgetary Resources.

    Property, Plant, and Equipment Reporting Requirements. Statement of
    Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
    Property, Plant, and Equipment,” November 1995, is the first SFFAS to address
    accounting and reporting requirements for PP&E. It establishes two categories of
    Federal PP&E: general PP&E and stewardship PP&E.

            General PP&E. SFFAS No. 6 defines general PP&E as any property,
    plant, and equipment used in providing goods or services. It also prescribes
    accounting and reporting requirements for general PP&E. General PP&E is
    recorded at cost on the balance sheet and, except for land, the cost is depreciated
    over the estimated useful life of the assets.

            Stewardship PP&E. SFFAS No. 6 defines three categories of
    stewardship PP&E: National Defense PP&E (formerly Federal mission PP&E) is
    one of the three categories. See Appendix B for definitions of the three
    categories. In most cases, the dollar value of stewardship PP&E is not included in
    the balance sheet. Additional stewardship guidance is provided in SFFAS No. 8
    and SFFAS No. 11.

                   SFFAS No. 8, “Supplementary Stewardship Reporting,” June
    1996, added two broad areas of stewardship reporting to stewardship PP&E:
    stewardship investments and stewardship responsibilities. SFFAS No. 8 also
    established reporting requirements for all three stewardship categories. All
    stewardship reporting is in the Required Supplementary Stewardship Information
    (RSSI) section of the financial statements. Both SFFAS No. 6 and SFFAS No. 8
    became effective for fiscal periods beginning after September 30, 1997.

                 SFFAS No. 11, “Amendments to Accounting for Property, Plant,
    and Equipment: Definitional Changes,” October 1998, and Statement of
    Recommended Accounting Standards No. 16, “Amendments to Accounting for




                                          1
Property, Plant, and Equipment: Measurement and Reporting for Multi-Use
Heritage Assets,” July 1999, would both affect PP&E reporting in the future, but
were not in effect at the time of the FY 1998 prior period adjustment.

Prior Period Adjustments of Property, Plant, and Equipment. For each
category of stewardship PP&E, SFFAS No. 6 requires that amounts previously
recognized as assets be removed from the balance sheet. Acquisition costs of the
stewardship PP&E, minus the associated accumulated depreciation, must be
subtracted from the amounts that represented assets in the PP&E section of the
balance sheet. The net amounts removed were to be offset with a reduction to the
net position of the entity and reported as a prior period adjustment. The amount
of the prior period adjustment associated with removal of the stewardship PP&E
was to be disclosed in a footnote.
Because general PP&E would continue to be reported on the balance sheet, no
prior period adjustment to remove it was required. However, SFFAS No. 6
requires that both the cost and accumulated depreciation to date of any
unrecognized general PP&E, or the net of the two figures, be recorded in the
FY 1998 implementation year, with the net amount recognized as a prior period
adjustment in the statement of changes in net position. If the cost of the assets
had not previously been recognized, such adjustments would be additions to,
rather than deletions from, the balance sheet.

Reporting of National Defense PP&E. DoD reported quantities of National
Defense PP&E when it should have reported the dollar value as prescribed by
SFFAS No. 8. We discussed that condition in Inspector General, DoD, Audit
Report No. 99-210, “Stewardship Reporting in the DoD Agency-Wide Financial
Statements for FY 1998,” July 9, 1999, but we acknowledged that the guidance
was being reconsidered at that time.

The guidance issue was still unresolved at the time of this audit. The Federal
Accounting Standards Advisory Board (the Board) was trying to decide the most
appropriate way to report National Defense PP&E. The discussion included an
extensive study of the intricacies of reporting values of National Defense PP&E,
indicating that reporting of values is likely to remain a requirement. Although the
reporting of values would not necessarily mean returning the National Defense
PP&E values to the balance sheet, the possibility remains.

Proposed Future Reporting of the Elements of RSSI. The Board was
proposing to eliminate the designation “RSSI.” Each element of what had been
reported as RSSI would become either basic information, equivalent in
importance to the principal financial statements, or the less audited required
supplementary information. As of June 9, 2000, the Board had not yet decided
into which category National Defense PP&E should go, but had already decided
that heritage assets and stewardship land should be basic information. Any actual
changes to the SFFAS have to go through a public comment process. The target
date for implementation of any of those changes is FY 2003.

RSSI Audit Requirement. The Office of Management and Budget bulletin,
“Audit Requirements for Federal Financial Statements,” establishes the minimum



                                     2
     requirements for audits of Federal financial statements. As of September 30,
     1999, with RSSI still a reporting category, the Office of Management and Budget
     removed the requirement to audit RSSI for the purpose of rendering an opinion on
     it, as would be required for basic information. Instead, auditors were to apply the
     less extensive procedures appropriate for reviewing required supplementary
     information. As a result of the Office of Management and Budget actions, we
     were not required to render an opinion on RSSI.



Objectives
     Our overall audit objectives were to determine whether the Military Departments
     were consistently identifying National Defense property, plant, and equipment as
     defined in SFFAS No. 11, “Amendments to Accounting for Property, Plant, and
     Equipment: Definitional Changes,” October 1998, and to determine whether the
     amount of the prior period adjustment removing National Defense PP&E from the
     balance sheet was correct. Because the prior period adjustments were one-time
     events, no management control program applies to them. Therefore, a review of
     management controls for this audit was not applicable. This report covers
     inconsistencies between the explanations of the prior period adjustment between
     the DoD Agency-wide financial statements and the component statements. We
     discussed the Army prior period adjustment in Inspector General, DoD, Report
     No. D-2000--165, “The Prior Period Adjustment to Remove National Defense
     Property, Plant, and Equipment From the Army General Fund Balance Sheet,”
     July 21, 2000. Appendix A discusses the scope, methodology, and prior audit
     coverage.




                                          3
                 DoD Agency-Wide Prior Period
                 Adjustment for Removal of National
                 Defense Property, Plant, and Equipment
                 The Defense Finance and Accounting Service (DFAS) Indianapolis Center
                 overstated the value of National Defense property, plant, and equipment
                 (PP&E) removed from the DoD Agency-wide financial statements balance
                 sheet, $635.5 billion, by $63.2 billion. In addition, the explanations for
                 the prior period adjustment were inadequate. The overstatement occurred
                 because adjustments were included that were not related to National
                 Defense PP&E. Furthermore, the DoD consolidated total ($698.7 billion)
                 exceeded the value ($676.6 billion) of the sum from the component
                 statements, and the narratives did not identify the dollar values associated
                 with each adjustment. As a result, the statements incorrectly associated
                 the value of $698.7 billion with the National Defense PP&E quantities
                 reported in the RSSI section. Additionally, if DoD is later required to
                 report National Defense PP&E by dollar value instead of by quantity, the
                 amounts reported will not be consistent with the $698.7 billion.

Breakdown of the DoD Agency-Wide Prior Period Adjustment
        Table 1 shows the breakdown by component statement and by type of adjustment.
               Table 1. Breakdown of the Prior Period Adjustment (dollars in millions)
                                       Change in                                       Consolidating
                                      Accounting        Error                            Statement
           Reporting                   Standards      Correction       Other                Total

Army General Fund (GF)                  $144,536.432     $         0       $       0        $144,536.432
Navy GF                                  340,685.736      -1,168.556          11.240         339,528.420
Air Force GF                             208,516.895     32,206.877                0         240,723.772
Army Working Capital Fund (WCF)                    0        -228.093               0            -228.093
Navy WCF                                           0         -55.694       1,020.920             965.226
Air Force WCF                                      0               0       3,255.603           3,255.603
Defense Logistics Agency WCF                -107.595        -159.839               0            -267.434
DFAS WCF*                                          0        -107.837          20.811             -87.026
Military Retirement Trust Fund                     0               0               0                   0
Army Corps of Engineers – Civil                    0       1,854.140               0           1,854.140
Works
Other Defense Organizations GF             5,034.346              0        5,621.341          10,655.687
Other Defense Organizations WCF                    0         34.739           24.934              59.673
  Total                                 $698,665.814    $32,375.737       $9,954.849        $740,996.400

*The DFAS Working Capital Fund information was not entirely clear. The breakdown shown in this table
was the interpretation of the preparer of the DoD Agency-wide financial statements. In our opinion, the
entire amount was represented as “Error Correction” in the DFAS Working Capital Fund statements.




                                                  4
Prior Period Adjustments on the Component Statements
         Based on the component statements, DFAS Indianapolis Center should have
         reported no more than $676.6 billion of the $698.7 billion “Change in Accounting
         Standards” as removal of National Defense PP&E. The $676.6 billion was
         overstated, because the actual value of the National Defense PP&E was closer to
         $635.5 billion. As shown in Table 1, the Army, Navy, Air Force, and Other
         Defense Organizations General Funds and the Defense Logistics Agency
         Working Capital Fund make up the $698.7 billion “Change in Accounting
         Standards.” Table 2 shows how the amounts appeared in the component
         statements, and how they should have appeared. A section on each component
         follows Table 2.

                    Table 2. Dollar Value of National Defense PP&E
                             Removed From Balance Sheet
                                   (dollars in millions)

                                    Per DoD Agency-       Per Component      Estimated Value
                                     Wide Statements        Statements           Per Audit

Army General Fund                          $144,536        $144,536              $106,965
Navy General Fund                           340,686         323,617               338,307
Air Force General Fund                      208,517         208,434               189,802
Defense Logistics Agency Working Capital Fund (108)               0                     0
Other Defense Organizations General Fund      5,034               0                   401

 Total                                    $698,665         $676,587              $635,475


         Army General Fund. The DoD Agency-wide statement explanation was
         consistent with the Army General Fund statement. The Army General Fund
         statement actually did say that the entire $144.5 billion “Change in Accounting
         Standards,” which was also the entire adjustment, was for removal of National
         Defense PP&E. However, about $29.9 billion of the adjustment had nothing to do
         with National Defense PP&E. We do not have a figure for National Defense
         PP&E as of September 30, 1997, the date to which the adjustment should have
         applied, but the logistics reported figure for September 30, 1998, was about
         $107 billion. DFAS Indianapolis Center did not use the $107 billion figure at all
         in calculating the prior period adjustment.

         Navy General Fund. The DoD Agency-wide statements should not have treated
         the Note 18 prior period adjustment total in the Navy General Fund as National
         Defense PP&E. Within the note, the part for “Change in Accounting Standards”
         had a total of $340.7 billion. The total included $17.1 billion for adjustments to
         general PP&E, about $277 billion for military equipment, $42.1 billion for war
         reserves, and $4.5 billion for progress payments. The narrative for Note 18 does
         not specifically provide the value of National Defense PP&E.

         Analysis of the Navy General Fund financial statements showed that the
         statements were combining the military equipment, war reserves, and progress
         payment amounts, totaling $323.6 billion--everything except the $17.1 billion for

                                                5
general PP&E--as the National Defense PP&E value. However, based on
supporting documents, our review calculated the value for National Defense
PP&E at approximately $338.3 billion.

Air Force General Fund. The Air Force General Fund statements, while not
entirely clear, vaguely implied that $208.5 billion in “Changes in Accounting
Standards” was for removal of National Defense PP&E. However, from the
descriptions of categories comprising the $208.5 billion, only categories totaling
$163 billion were clearly National Defense PP&E categories. Of the remaining
“Changes in Accounting Standards” categories, the category for land,
$83.2 million, was clearly not for the removal of National Defense PP&E.
Therefore, the DoD Agency-wide statements should have reduced the amount
shown by at least $83.2 million, to about $208.4 billion. Table 2 uses this value
as the maximum amount that reasonably could be assumed to be National Defense
PP&E based on the Air Force General Fund statements.

Additional analyses indicated that the category of buildings, $532 million, was for
multi-use heritage assets and should not have been included as a National Defense
PP&E adjustment, or as any prior period adjustment. Finally, the category of
equipment with contractors, $18.1 billion, was not supported as a National
Defense PP&E adjustment, or as any prior period adjustment. Eliminating the
adjustments for land, buildings, and equipment with contractors from the National
Defense PP&E valuation yields an estimate of $189.8 billion in prior period
adjustments made as a result of changes in accounting standards for removal of
National Defense PP&E. Therefore, the value for National Defense PP&E was
overstated by $18.7 billion, because it reflected a value of $208.5 billion instead
of $189.8 billion.

Defense Logistics Agency Working Capital Fund. The Defense Logistics
Agency Working Capital Fund statements clearly identified the entire
-$0.1 billion prior period adjustment as being for reasons other than the removal
of National Defense PP&E. Most of it was to adjust for a change in the method of
recognition of gains and losses on inventory revaluations, and about $73,000 was
for a change in the method of accounting for collection of refunds. In addition,
the statements specifically stated that the Defense Logistics Agency did not have
any National Defense PP&E. Accordingly, the DoD Agency-wide statements
should not have identified any of the amount as removal of National Defense
PP&E.

Other Defense Organizations General Fund. The unpublished FY 1998 Other
Defense Organizations General Fund statements gave no explanation for the
$5.03 billion “Change in Accounting Standards” portion of its prior period
adjustment. Only the U.S. Special Operations Command, of the 21 Other Defense
Organizations that were consolidated, had National Defense PP&E. As of
September 30, 1997, the agency owned major end items categorized as National
Defense PP&E, which cost approximately $401 million. Therefore, $401 million
of the $5.03 billion prior period adjustment should have been the value in the
change in accounting standards needed to remove National Defense PP&E from
the balance sheet. The remaining $4.63 billion should have been reported as
“Errors and Omission in Prior Year Accounting Reports.”



                                     6
Explanation of the DoD Agency-Wide Prior Period
  Adjustment
    The DFAS Indianapolis Center prepares the DoD Agency-wide financial
    statements. The total prior period adjustment on the DoD Agency-wide financial
    statements was approximately $741 billion. The notes to the financial statements
    did not completely explain the adjustment. Table 3 shows the exact wording of
    the applicable footnote, although not the exact format.

       Table 3. Exact Wording of the DoD Agency-Wide Footnote on the Prior
                                Period Adjustment
                               (dollars in thousands)
    “Prior Period Adjustments
     Changes in Accounting Standards                                          $698,665,814
     Errors and Omission in Prior Year Accounting Reports                       32,375,737
     Other                                                                       9,954,849
                                                                              ___________
       Total                                                                  $740,996,400

    “Other Information: Prior period adjustments were used to remove the value of October 1997,
    PP&E designated by federal accounting standards as National Defense PP&E for the balance
    sheet. Those items are reported in the Stewardship Statement. Current year acquisitions of
    National Defense PP&E are expensed in accordance with the standards.
    “Air Force made a $31.4 billion adjustment to record accumulated depreciation for September
    1997 depreciable assets. Depreciation, though required, had not been previously reported in the
    financial statements.”

    The explanation does not cover the entire adjustment and is ambiguous as to what
    is covered. The first paragraph does not specifically say whether it applies to the
    “Changes in Accounting Standards” line and talks about removal of National
    Defense PP&E from the balance sheet without giving any associated dollar
    amount. Based on that information, the possible conclusions are that the
    $698.7 billion all applied to removal of National Defense PP&E, or that the
    $698.7 billion was not fully explained. The only part of the entire $741 billion
    with an amount specified is the $31.4 billion Air Force adjustment to record
    accumulated depreciation for September 1997 depreciable assets (general PP&E).
    Because of the placement in the second paragraph, it appears that the $31.4 billion
    is part of the $32.4 billion “Errors and Omission in Prior Year Accounting
    Reports,” but it could apply to “Changes in Accounting Standards.” The footnote
    gives no further information about any unexplained amounts of “Changes in
    Accounting Standards” or “Errors and Omission in Prior Year Accounting
    Reports.” The $9.9 billion “Other” line is completely unexplained.




                                               7
Effects of Representing the Entire Adjustment as National
  Defense PP&E
     The lack of clarity in the note explaining the prior period adjustment was not in
     compliance with the DoD guidance for financial statement preparation.
     According to DoD Regulation 7000.14-R, volume 6B, “Form and Content of
     Department of Defense Audited Financial Statements” (the DoD Form and
     Content), entities are to disclose the nature and amount of significant prior period
     adjustments. They are to identify specifically any amounts with a value greater
     than $100 million.

     The effects of representing the entire adjustment as National Defense PP&E go
     beyond properly disclosing the portions that removed stewardship PP&E as
     required by SFFAS No. 6 and the DoD Form and Content. The financial
     statement presented an overstated value for National Defense PP&E of
     $698.7 billion as of September 30, 1997. As a result, the statements would also
     be associating the $698.7 billion with the National Defense PP&E quantities
     reported in the financial statements’ RSSI, adjusted for any current year additions
     and deletions.

     Statement of Federal Financial Accounting Concepts No. 1, “Objectives of
     Federal Financial Reporting,” September 2, 1993 (Concept 1), states that
     information in financial reporting should represent what it purports to represent.
     Statement of Federal Financial Accounting Concepts No. 2, “Entity and Display,”
     April 20, 1995, states that accompanying footnotes to financial statements are an
     integral part of the statements and are needed to make the statements more
     informative and not misleading. The footnote was misleading because the
     $698.7 billion prior period adjustment represented significantly more than the
     removal of National Defense PP&E from the balance sheet. Concept 1 also states
     that no material information should be omitted. The DoD Agency-wide
     statements did not disclose the fact that according to the component statements,
     only $676.6 billion of the $698.7 billion was for removal of National Defense
     PP&E.

     Finally, Concept 1 requires financial reports to be consistent over time. The DoD
     should report National Defense PP&E by dollar value, but instead DoD reported it
     by quantity. If DoD later reports National Defense PP&E by dollar value, the
     amount reported will be significantly less than the $698.7 billion. The
     significance of the inconsistency could increase if the Board makes the dollar
     value basic information rather than required supplementary information, and it
     would become significantly more relevant if the dollar value were returned to the
     balance sheet.

     In addition to the effects on DoD financial statements, because DoD information
     is consolidated into the Government-wide reporting, Government-wide financial
     statements will continue to be inaccurate and unreliable until necessary
     corrections are made and disclosures presented.




                                           8
Recommendations, Management Comments, and Audit
Response
We recommend that the Director, Defense Finance and Accounting Service
Indianapolis Center:

        1. Implement DoD Regulation 7000.14-R, volume 6B, “Form and Content of
the Department of Defense Audited Financial Statements” guidance that requires
entities to fully explain all prior period adjustments exceeding $100 million in the
applicable footnotes.

Management Comments. DFAS concurred and stated that it had made every effort to
fully disclose material conditions. DFAS stated that it would work with the supporting
accounting and logistics offices to improve the area during FY 2000. DFAS expects
completion by January 31, 2001.

       2. In FY 2000 and beyond DoD financial statement footnotes and narratives:

            a. Disclose the actual valuation of National Defense property, plant,
and equipment removed from the statements.

             b. State the value of the National Defense property, plant, and
equipment reported for FY 1998, with any necessary disclaimers on the accuracy of
the amount.

               c. Restate what the adjustment actually represented.

Management Comments. DFAS did not concur and stated that addressing the FY 1998
prior period adjustment narrative misstatement was not appropriate or necessary. DFAS
added that DoD Regulation 7000.14-R, volume 6B, “Form and Content of the
Department of Defense Audited Financial Statements” for FY 1998 did not require
disclosure of the value of the National Defense PP&E removed from the balance sheet.
DFAS also stated that addressing the FY 1998 value of the National Defense PP&E prior
period adjustment in the FY 2000 and future financial statements was inappropriate and
unnecessary.

Audit Response. The DFAS comments are not responsive to the recommendations. The
intent of our recommendations was to ensure that financial statements, footnotes, and
other financial information clearly document the value of National Defense Property,
Plant, and Equipment that was removed from the financial statements. As evidenced by
the audit results, the $698.7 billion included other items that were not related to National
Defense Property, Plant, and Equipment. Our recommendations to disclose the actual
valuation of the National Defense Property, Plant, and Equipment in the footnotes were
to ensure that the appropriate value for these assets would be presented in the financial
statements.

The Federal Accounting Standards Advisory Board is currently deliberating whether or
not to reinstate National Defense Property, Plant, and Equipment on the DoD financial
statements. The $698.7 billion in National Defense Property, Plant, and Equipment
removed from the balance sheet in FY 1998 was overvalued by at least $63.2 billion. In
                                             9
the event that the Federal Accounting Standards Advisory Board does require the
reinstatement of National Defense Property, Plant, and Equipment on the DoD financial
statements, the amount that would be reported is the erroneous $698.7 billion. In that
case, National Defense Property, Plant, and Equipment would continue to be overstated
by at least $63.2 billion.

We believe that in order to prevent this from occurring, action should be taken to disclose
for FY 2000 and beyond the correct valuation of the items that were removed from the
financial statements. Accordingly, we request that the DFAS reconsider its position and
provide specific actions to be taken to implement the recommendations or propose
alternative actions that would ensure that the DoD accurately and consistently reports the
value of National Defense Property, Plant, and Equipment now and in the future. An
example of an alternative action would be a requirement for the Military Departments to
recalculate the value of National Defense Property, Plant, and Equipment to ensure that
only those items are accounted for in the valuation. The results of this recalculation
should be retained in the event that National Defense Property, Plant, and Equipment is
reinstated on the DoD financial statements.

             d. Maintain consistency between the DoD Agency-wide financial
statements and underlying component statements.

Management Comments. DFAS concurred and gave an estimated completion date of
January 31, 2001. However, DFAS did not specify what corrective action it would take
and stated that in the preparation of the FY 1998 prior period adjustment, it maintained
consistency between the DoD Agency-wide statements and the component statements.

Audit Response. The comments are not responsive in that they do not specify what
corrective action management plans to take. Additionally, they do not explain how the
DoD Agency-wide statements could be consistent with component statements when the
Agency-wide statements represented the removal of National Defense PP&E as
$698.7 billion, and the component statements represented it as $676.6 billion. We
request that DFAS provide additional comments on this recommendation.




                                            10
Appendix A. Audit Process


Scope
    Work Performed. We reviewed the DoD Agency-wide financial statements and
    the component statements, including the unpublished ODO General Fund
    statements, regarding the prior period adjustments. We also interviewed
    personnel at the DFAS Indianapolis Center and discussed the basic methodology
    that they used in preparing the DoD Agency-wide financial statements. We were
    not required to and did not render an opinion on the RSSI statements.

    Limitations to Scope. Although we obtained reasonable estimates of the value of
    National Defense PP&E held by the Military Departments and the ODO General
    Fund, we were unable to determine exactly what the amounts of the adjustments
    should have been. The correct amounts would have been the amounts on the
    applicable balance sheets as of September 30, 1997, that represented the various
    types of stewardship PP&E. The components had not calculated those amounts
    because RSSI was not a requirement in FY 1997. The DoD Agency-wide FY
    1997 balance sheet had a value for military equipment, but the value did not
    correspond to National Defense PP&E for FY 1998.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-Wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

    •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
        by pursuing a focused modernization effort that maintains U.S. qualitative
        superiority in key warfighting capabilities. Transform the force by exploiting
        the Revolution in Military Affairs, and reeingineer the Department to achieve
        a 21st century infrastructure. (01-DoD-2)

    •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
        information management. (01-DoD-2.5)

    •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions on
        financial statements. (01-DoD-2.5.2)

    General Accounting Office High-Risk Areas. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.




                                        11
Methodology
    Use of Computer-Processed Data. We did not use computer-processed data for
    this report.

    Audit Type, Dates, and Standards. We conducted this financial-related audit
    from June 1999 through July 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the Inspector
    General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage
    Inspector General, DoD, Report No. D-2000-165, “The Prior Period Adjustment
    to Remove National Defense Property, Plant, and Equipment from the Army
    General Fund Balance Sheet,” July 21, 2000




                                       12
Appendix B. Categories and Reporting
            Requirements for Stewardship
            Property, Plant, and Equipment
   The three categories of stewardship PP&E and the reporting requirements for
   them are as follows.

   National Defense PP&E (Originally Federal Mission PP&E). The National
   Defense PP&E category consists of weapon systems and support PP&E owned by
   DoD or its component entities for use in the performance of military missions and
   vessels held in a preservation status by the Maritime Administration’s National
   Defense Reserve Fleet. National Defense PP&E is typically held for use in the
   event of war or other emergency. Additional characteristics of National Defense
   PP&E are an indeterminate or unpredictable useful life and a high risk of being
   destroyed during use or becoming obsolete prematurely. For these reasons, the
   usual depreciation of roughly equal portions of the cost over the estimated useful
   life, starting at the time of acquisition, does not reflect the way the assets are
   actually used. Starting in FY 1998, costs of acquisition and improvement of
   National Defense PP&E were to be recognized as expenses in the year incurred.

   SFFAS No. 8 requires the reporting of National Defense PP&E as RSSI in dollars
   at acquisition cost. That requirement was in effect at the time of the audit.
   Therefore, the cost of National Defense PP&E removed from the balance sheet,
   adjusted for the intervening years’ activity, should be reconcilable with cost
   reported as RSSI.

   Heritage Assets. Heritage assets are PP&E unique for historical or natural
   significance; cultural, educational, or artistic importance; or significant
   architectural characteristics. Heritage assets are divided into collection-type
   heritage assets, such as items in a museum, and noncollection-type assets, such as
   historic buildings. Except as noted below, the expectation is that heritage assets
   will be preserved rather than used and will be kept for an indefinite period.
   Additionally, it may be impossible to determine any reasonable value. Unlike
   National Defense PP&E, reporting of heritage assets in RSSI is in physical units,
   not dollars. New acquisition and improvement costs are to be expensed as
   incurred.

   Multi-use heritage assets, generally noncollection type, consist of PP&E items
   that have the properties of heritage assets and are also used in Government
   operations. Statement of Recommended Accounting Standards No. 16 (in
   Congress for review before issuance as SFFAS No. 16), “Amendments to
   Accounting for Property, Plant, and Equipment - Measurement and Reporting for
   Multi-Use Heritage Assets,” July 1999, states that the assets should remain on
   entity balance sheets, in dollars, as general PP&E. They are also to be reported on
   the heritage asset statement in physical units. New acquisition and improvement
   costs are to be capitalized and depreciated rather than expensed. Therefore, the
   adjustment to remove heritage assets from the balance sheet would not include

                                       13
multi-use heritage assets. Although the effective date for SFFAS No. 16 is
FY 2000, DoD has already taken the prescribed approach to accounting for multi-
use heritage assets.

Stewardship Land. Stewardship land is land owned by the Federal Government
and not acquired for or in connection with general PP&E. Examples in SFFAS
No. 6 are forests, parks, and land used for wildlife and grazing. As with heritage
assets, reporting is in physical units such as acres, not dollars. Further
interpretations of SFFAS No. 6 extend the definition to donated land and land
allocated from the public domain, for which no acquisition cost is available, and
for which a determination of the value may be difficult. That further
interpretation can include land used operationally; in fact, a large number of
active military bases are located on former public domain land. The cost of land,
including general PP&E land, is never depreciated. Any new costs to acquire or
improve stewardship land are expensed as incurred.




                                    14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          16
Defense Finance and Accounting Service
Comments




                   17
18
19
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General who contributed to this report are listed below.

F. Jay Lane
David F. Vincent
John A. Richards
Tyler C. Apffel
Ronald L. Smith
James F. Friel
Elizabeth Lucas
Kandy T. Sutton
Anissa M. Nash
Noelle Blank
